IN THE

Supreme Court of the Gnited States

No.

INDIAN RIVER COUNTY, FLORIDA; INDIAN RIVER
COUNTY EMERGENCY SERVICES DISTRICT,
Petitioners,
Vv.

UNITED STATES DEPARTMENT OF TRANSPORTATION;
ELAINE L. CHAO, IN HER OFFICIAL CAPACITY AS
SECRETARY OF TRANSPORTATION; UNDER SECRETARY
OF TRANSPORTATION FOR POLICY; FEDERAL
RAILROAD ADMINISTRATION; PAUL NISSENBAUM,
IN HIS OFFICIAL CAPACITY AS ASSOCIATE
ADMINISTRATOR OF THE FEDERAL RAILROAD
ADMINISTRATION; AAF HOLDINGS LLC,

Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the District of Columbia Circuit

CERTIFICATE OF SERVICE

I hereby certify that on this 18th day of May, 2020, I caused three copies of the
Petition for a Writ of Certiorari to be served on the counsel of record as follows:

By overnight delivery and email to:

David H. Coburn Solicitor General of the
STEPTOE & JOHNSON LLP United States
1330 Connecticut Avenue, N.W. Room 5616
Washington, D.C. 20036 DEPARTMENT OF JUSTICE
(202) 429-8063 950 Pennsylvania Ave., N.W.
DCoburn@Steptoe.com Washington, D.C. 20530-0001
(202) 514-2217
Counsel for Respondent SupremeCtBriefs@USDOJ.gov
AAF Holdings LLC
Counsel for the

Federal Respondents
I hereby certify that all parties required to be served have been served. I declare
under penalty of perjury that the foregoing is true and correct.

Executed on May 18, 2020.

 

(202) 556+ 2000
jlamken@mololamken.com

Counsel for Petitioners
